                                                      National Railroad Passenger Corporation
                                                      Office of Inspector General
                                                      10 G Street N.E.
                                                      Washington, DC 20002




                     Amtrak Employee Credits Personal Credit Cards
                                Case Number 08-003
                                  August 17, 2010

An Amtrak employee reported a possible misuse of credit cards to steal funds from the Amtrak
Manual Credit Card System (MCCS). An investigation discovered that an Amtrak employee,
who worked with the MCCS account, had used the account to steal over $154,000 from Amtrak
by crediting their personal credit cards. The individual pled guilty in US District Court to a
felony charge of theft from a program receiving Federal funds. The employee was sentenced to
five years probation and ordered to pay restitution to Amtrak. Finance management and
supervisors worked to create procedures preventing future manipulation of the system by
employees, and better oversight of system use.
